PETITIONER'S EVIDENCE (Pet.Ex.) AND APPENDIX (App.)

(pet.Ex.# 1): Petitioner's plea proceeding transcript (August 16,2007)
(Pet.Ex.# 2): Petitioner's plea agreement (August 14,2007)
(Pet.Ex.# 3): Judge Erik Christian's
(Pet.Ex.# 4):
(Pet.Ex.# 5): Prosecutor Attorney Gleen Kirschner's Affidavit (May 4,2009)
(Pet.Ex.# 6): Attorney Paul Signet's Memorandum (February 26,2008)
(Pet.Ex.# 7): Attorney Paul Signet's Affidavit .(May 1,2009)
(Pet.Ex.# 8); Damon Ihomas' Affidavit (October 5,2016)

(App.# 1): The Court Of Appeals Judgment (April 30,2020)
(App.# 2): Judge Christian's Order (June 20,2018)
(App.# 3): Judge Christian's Order (June 20,2019)
(App.# 4>; Judge Christian's Order (August 20,2012)
(App.# 5): The Court of Appeals Judgment (June 22,2011)
(App.# 6): Judge Christian's Order (December 30,2009)

1

*

;

n

■

^

-

o

Bfetrict of Columbia
Court of iSppealsf

KXQ
APR 3 0 2020

3Sgg!jg[gga

No. 19-CO-547
STEVEN ROBINSON
AJK/A MICHAEL MOORE,
Appellant,
v.

2006 CF1 2942

UNITED STATES,
Appellee.
BEFORE:

Glickman, Beckwith, and Deahl, Associate Judges.
JUDGMENT

On consideration of appellee’s motion and amended motion for summary
affirmance, appellee’s motion to supplement the record, appellant’s cross-motion
and motion to supplement the cross-motion for summary reversal, appellee’s
opposition, appellant’s brief and limited appendix, and the record on appeal, it is
ORDERED that appellee’s motion to supplement the record is granted and the
attachments to the motion are hereby filed as a supplemental record. It is
FURTHER ORDERED that appellee’s motion and amended motion for
summary affirmance are granted. See Watson v. United States, 73 A.3d 130, 131
(D.C. 2013) (summary affirmance is appropriate “as long as the basic facts were
uncomplicated and the trial court’s ruling rested on a narrow and clear-cut issue of
law); Oliver T. CarrMgmt., Inc. v. Nat’lDelicatessen, Inc., 397 A.2d 914,915 (D.C.
1979). Appellant fails to establish a tenable basis for relief. This court has
previously considered and rejected all of the arguments appellant raises in his brief
and motion for summary reversal. See Robinson v. United States, No. 12-CO-1619,
Mem. Op. & J. (D.C. July 16, 2013); Robinson v. United States, No. 10-CO-277,
Mem. Op. & J. (D.C. June 22, 2011); accord Bradley v. United States, 881 A.2d
640, 645 (D.C., 2005), (“[WJhere the original motion was denied on the merits, and
affirmed by this court on appeal ... all the claims [appellant] raised in his first
motion, including ineffective assistance of counsel, cannot be raised again in a
second (or third or fourth) motion.”). It is

(* .

• )d

t..

No. 19-CO-547
FURTHER ORDERED that appellant’s motion and supplemental motion for
summary reversal are denied as moot. It is
FURTHER ORDERED and ADJUDGED that the order on appeal is affirmed.

ENTERED BY DIRECTION OF THE COURT:

JULIO A. CASTILLO
Clerk of the Court

Copies mailed to:
Honorable Erik P. Christian
Clerk - Criminal Division
Steven T. Robinson
Fed. Reg. # 08088-007
Rivers Correctional Institution
P.O. Box 630
Winton, NC 27986
Copy e-served to:
Elizabeth Trosman, Esquire
Assistant United States Attorney
cml

14

.c

-> .

i

Filed
D.C. Superior Court
06/20/2019 16:54PM
Clerk of the Court

SUPERIOR COURT OF THE DISTRICT OF COLUMBIA
CRIMINAL DIVISION
UNITED STATES OF AMERICA,

Criminal No. 2006 CF1 002942

Judge Erik P. Christian
v.
CLOSED FILES
'STEVEN ROBINSON,
(a/k/a Michael Moore)
DEFENDANT.
ORDER
This matter is before the Court upon consideration of Defendant Steven
Robinson’s (a/k/a Michael Moore’s) “Application Pursuant to Court Orderf1] Seeking
Leave to File a D.C. Code § 23-110 Motion” filed on July 30, 2018 (the “Application”).2
Attached to the Application is Defendant’s proposed § 23-110 Motion.
I.

FACTS

On August 16, 2007, Steven Robinson (“Defendant”) pled guilty to the charges of
second-degree murder while armed and obstruction of justice in D.C. Superior Court.
/

See Def.’s signed Waiver of Trial by Jury or Court upon Entiy of Guilty Plea, dated Aug.
16, 2007. The Court determined Defendant’s guilty plea was “knowing, intelligent, and
voluntary.” Order, July 31, 2008 at 7. On August 21, 2007, Defendant filed a Motion to
Withdraw his Guilty Plea claiming the government coerced him to plead guilty by

i

This Court issued an Order on November 30, 2015 precluding Defendant from filing any further motions
pursuant to D.C. Code § 23-110, D.C. Super. Ct. R. 33, D.C. Super. Ct Crim. R. 35, or under the Writ of
Coram Nobis or Writ ofMandamus, without first obtaining leave of the Court. See Order, Nov. 30, 2015 at
13-14.
2 Defendant thereafter filed a “Motion to Amend Exhibit #1” (Aug. 16, 2018) and a “Memorandum of
Law” (Dec. 26,2018) which supplement the Application.

1

threatening to prosecute his wife if he did not do so. Def.’s Mot., Aug. 21, 2007. The
Court denied Defendant’s motion and sentenced him to thirty-five years imprisonment on
October 19, 2007. Order, Oct. 19, 2007. Once more, Defendant moved to withdraw his
guilty plea on February 12, 2008. Def.’s Mot., Feb. 12, 2008. Defendant’s request to
withdraw his guilty plea was denied by Court Order dated July 31,2008. Order, July 31,
2008.

On October 9, 2008, Defendant filed a Motion Pursuant to D.C. Code § 23-110,
and alleged three reasons for his sentence to be vacated and set aside. See Def.’s Mot.,
Oct. 9, 2008. First, Defendant claimed his plea was obtained by threats to prosecute his
wife. Def.’s Mot., Oct. 9, 2008 at unnumbered pg. 2-3. Second, Defendant asserted his
plea did not comport with D.C. Super. Ct. R. Crim. P. 1 l’s requirement that it be offered
knowingly and voluntarily. Def.’s Mot., Oct. 9, 2008 at unnumbered pg. 3-5. Third,
Defendant claimed ineffective assistance by trial counsel, Paul~Signet, because counsel
allegedly failed to interview witnesses, urged Defendant to plead guilty, and failed to file
an appeal of the denial of his D.C. Super. Ct. R. Crim. P. 32 (e) Motion. Def.’s Mot.,
Oct. 9,2008 at unnumbered pg. 5-8.
The Court granted Defendant a hearing on his October 9, 2008 D.C. Code § 23110 motion, and appointed Archie Nichols as Defendant’s post-conviction legal counsel.
See Order, March 19, 2009. The hearing was held on September 10, 2009. See Order,
Nov. 30, 2015 at 3. Following the hearing, the Court issued an Order on December 30,
2009, finding that Attorney Signet’s representation had been effective. See Order, Dec.
30, 2009 (filed in CourtView January 8, 2010).

2

Defendant filed a direct appeal, and the

D.C. Court of Appeals affirmed the Order on June 22, 2011. Robinson v. United States,
No. 10-CO-277, slip op. (D.C. June 22, 2011).
Defendant filed a second D.C. Code § 23-110 motion on May 7, 2012. Def.’s
Mot., May 7, 2012. Therein, Defendant asserted the representation provided by his trial
and post-conviction counsel, Signet and Nichols, respectively, had been ineffective. See
Def.’s Mot., May 7, 2012 at 5-7. The Court denied this D.C. Code § 23-110 motion on
August 20, 2012. Order, Aug. 12,2012. Defendant appealed the Court’s decision, but it
was affirmed by the Court of Appeals on July 16, 2013. Robinson v. United States, No.
12-CO-1619, slip op. (D.C. July 16,2013).
Following these motions and appeals, on October 17, 2013, Defendant filed a
Motion for Reconsideration of D.C. Code § 23-110.

Def.’s Mot., Oct. 17, 2013.

Defendant also filed a Motion for Writ of Error Coram Nobis on January 8, 2014. Def.’s
Mot., Jan. 8, 2014. Additionally, Defendant filed a third D.C. Code § 23-110 motion on
July 25, 2014. Def.’s Mot., July 25, 2014. In each of these motions, Defendant raised
claims that had been previously considered and resolved by the Court or failed to include
evidentiary support, thus requiring the Court to expend unnecessary and extensive
judicial resources. See Order, Nov. 30, 2015 at 6-11, 13. As a result, the Court precluded
Defendant from filing any further motions pursuant to D.C. Code § 23-110, D.C. Super.
Ct. R. 33, D.C. Super. Ct. Crim. R.35, or under the Writ of Coram Nobis or Writ of
Mandamus, without first obtaining leave of the Court. See Order, Nov. 30, 2015 at 1314. Similarly, on November 4, 2016, the D.C. Court of Appeals ordered Defendant:
“shall not file any future pro se appeals stemming from Superior Court No. 2006-CF1-

3

2942 without first obtaining leave of this court.” See Robinson v. United States, No. 15CO-1364, slip op. (D.C. Nov. 4, 2016).
n.

SCOPE OF REVIEW

It is well-settled that “[t]he court has the discretion and the power to restrict a
litigant who abuses the judicial system.” Ibrahim v. District of Columbia, 755 A.2d 392,
394 (D.C. 2000); see, also, Corley v. United States, 741 A.2d 1029, 1029-30 (D.C. 1999)
(inmate was enjoined from filing any prospective submission without leave of court after
launching “innumerable unsuccessful attacks” on his convictions). Because frivolous
claims utilize courts’ limited resources, a court may employ injunctive remedies to
protect the integrity of the courts and the orderly administration of justice. See Little v.
United States, No. 18-CO-640, slip op. (D.C. June 5, 2019); Ibrahim, 755 A.2d at 393;
Corley, 741 A.2d at 1030. Given the extreme nature of this remedy, however, a court
must make a showing of a pattern of harassment, looking to both the number and content
of the filings, before resorting to this measure. See Little, slip op. (D.C. June 5, 2019).
HL

ANALYSIS

In Ibrahim, the D.C. Court of Appeals affirmed the lower court’s decision
enjoining a defendant from filing subsequent claims without first obtaining leave of court
after finding his 25 lawsuits filed within a 10-year period to be frivolous and an abuse of
the judicial system.

Ibrahim, 755 A.2d at 393.

As in Ibrahim, this Court finds

Defendant’s history of filings to be similarly frivolous and abusive. See id Over the
span of eleven years, Defendant has filed over 38 motions, notices, petitions, and
applications, most of which were denied on the merits or for being duplicative and
unnecessary. See Order, June 13, 2018 at 4, 7; Order, Nov. 30, 2015 at 13-16.

4

24. Motion to Deny the Government’s Motion for an Extension of Time to Respond
(filed March 10, 2015; denied November 30, 2015);
25. Motion for Notice of Status (filed June 5,2015; denied November 30, 2015);
26. Notice of Error Motion (filed August 4, 2015; denied November 30,2015);
27. Motion to Expedite Proceeding (filed August 25, 2014; denied November 30,
2015);
28. Motion to Show Cause (filed November 10, 2015; denied November 30,2015);
29. Motion for Reconsideration (filed December 29, 2015; denied January 8,2016);
30. Supplemental Motion for Reconsideration (filed January 19,2016);
31. Formal Complaint for Recuse (filed February 2, 2016 with correspondence);
32. Notice of Appeal (filed December 15,2015; affirmed November 7, 2016);
33. Defendant’s Memorandum of Law (filed October 3, 2017);
34. Application Seeking Leave to File D.C. Code § 23-110 Motion (filed August
17,2017; denied June 13, 2018);
35. Application Pursuant to Court Order Seeking Leave to File a Notice of Appeal
(filed June 26, 2018; granted June 20th, 2019);
36. Application Pursuant to Court Order Seeking Leave to File a D.C. Code § 23110 Motion (filed July 30, 2018);
37. Motion to Amend Exhibit #1 (filed August 21, 2018); and
38. Memorandum of Law Supporting Application Seeking Leave to File a D.C.
Code § 23-110 Motion (filed December 26, 2018).
Looking to both the number and content of the Defendant’s eleven years of
filings, there is a pattern of harassment which includes Defendant’s present “Application
7

While the Court does not seek to eliminate Defendant’s ability to present
legitimate claims or new evidence, the Court cannot continue to review duplicative
motions. See Order, Nov. 30, 2015 at 13. Thus, if Defendant wishes the Court to
consider the merits of the § 23-110 Motion attached to his pending Application or to file
a new motion in the future, he must specifically certify that the “claim is made in good
faith, is not frivolous, and has not been previously disposed of on the merits.” See
Ibrahim, 755 A.2d at 393.
IV.

CONCLUSION

Defendant’s Application has failed to show any constitutional infirmities, which
must be addressed pursuant to D.C. Code § 23-110. Defendant’s Application fails to
present any new evidence and relies on arguments previously considered and rejected by
the Court. In short, Defendant’s Application seeking leave to file an attached D.C. Code
§ 23-110 Motion is without merit. Because Defendant has made a practice of filing
duplicative, successive motions, taxing the Court’s judicial resources, the Court again
finds that Defendant has abused the Court’s processes and must be limited from making
future filings without leave of Court.
Accordingly, this 20th day of June 2019, it is hereby
ORDERED, that Defendant Steven Robinson’s (a/k/a Michael Moore’s)
Application Pursuant to Court Order Seeking Leave to File a D.C. Code § 23-110 Motion
is DENIED, and it is further
ORDERED, that Defendant may amend his (1) “Application Pursuant to Court
Order Seeking Leave to File a D.C. Code § 23-110 Motion” filed on July 30 2018, (2)
“Motion to Amend Exhibit #1” filed August 16, 2018, and (3) “Memorandum of Law”

9

t

filed December 26, 2018” provided he is able to specifically include Defendant’s
certification as to each document that: (1) the claim is made in good faith; (2) the claim is
not frivolous; and (3) the claim has not been previously disposed of on the merits; and it
is further
ORDERED, that Defendant shall not file any further pro se post-conviction
motions without first obtaining leave of this Court, which includes Defendant’s
certification as to each document that: (1) the claim is made in good faith; (2) the claim is
not frivolous; and (3) the claim has not been previously disposed of on the merits.
SO ORDERED.
ERIK P. CHRISTIAN
JUDGE
(Signed-in-Chambers)
Copies to:
Steven Robinson a/k/a Michael Moore
#08088-007
Federal Correctional Institution
P.O. Box 9000
Berlin, NH 03570
Jessie Liu, Esq. - United States Attorney
Elizabeth Trossman, Esq.
Assistant United States Attorney
555 Fourth Street, NW
Washington, DC 20530
Via CaseFileXpress

10

1

>

>

■

“I

i

• 'jPEri.n* ;o\»rt r or .

TRictf$,K’j^^
S^ORCO^TOFmD^
2012 AUS 20 P 2= lb
UNITED STATES OF AMERICA

CrimiBaltyO’

CF1002942

Judge Erik P. Christian

1
v.

CLOSED FILES

1

STEVEN T. ROBINSON, a.k.a.
MICHAEL MOORE,
DEFENDANT.

1

ORDER

, i

This matter is before the Court upon consideration of Defendant Steven T.
Robinson's1

J
J|
Jl
J|

Motion to Vacate Conviction and Sentence Pursuant to § 23 D.C. Code

Section 110. The Motion is denied.
I.

BACKGROUND

On December 31, 2005, 15-year-old John Allen, Jr., was shot and murdered.
Defendant Steven T, Robinson was arrested and charged with murder on February 14,
2006. On September 12,2006, Defendant and Robert Kelsey, Jr. (“Kelsey”), were jointly
indicted for John Allen's murder. Defendant was charged with Conspiracy, First Degree
Murder While Armed, Assault with a Dangerous Weapon, Possession of a Firearm

j

During a Crime of Violence, Unauthorized Use of a Vehicle, and Obstruction of Justice.
On August 10, 2007, Kelsey pled guilty to assault with the intent to kill, accessory after
the feet, and unauthorized use of a vehicle.

J
J
J
J

Steven T. Robinson is also known as Michael Moore.

1

1

1
1
1
1
ii

Court found that Mr. Signet’s representation was “complete and thorough.” Defendant
appealed, but the decision of the trial court was affirmed on June 22, 2011. On May 7,
2012, ten months after his appeal was denied, Defendant filed the instant § 23-110
Motion, asserting that his appointed counsel at the § 23-110 Hearing was ineffective.
II.

STANDARD OF REVIEW

“A prisoner in the custody under sentence of the Superior Court claiming the right
to

be released upon the ground that (1) the sentence was imposed in violation of the

Constitution of the United States or the law of the District of Columbia... may move the
court to vacate, set aside, or correct the sentence.” D.C. Code § 23-110(a) (2012).
Unless the motion, files, and records from the case conclusively show that a prisoner is
not entitled to relief, the court shall hold a hearing to determine the issues relating to the

J
Jl
Jl
J
Jl
J
J
Jl
J
s
I

sentence of the prisoner. Id. §23-110(c). There is a statutory presumption in favor of a
hearing. Metis v. United States, 877 A.2d 113, 118-19 (D.C. 2005). However, no
hearing is required where the defendant’s motion consists of “(1) vague and conclusory
allegations. (2) palpably incredible claims, or (3) allegations that would merit no relief
even if true.” Id. at 119 (quoting Lopez v. United States, 801 A.2d 39,42 (D.C. 2002)).
Defendant alleges that he was denied his right to effective assistance of counsel
during the § 23-110 Hearing. However, Defendant’s claims are barred because there is
no conStitutional right to counsel in post-conviction proceedings. In re R.E.S., 978 A.2d
182, 190 n.6 (D.C. 2011) (quoting Coleman v. Thompson, 501 U.S. 722, 752 (1991)).
There is no statutory basis for an unqualified right to the appointment of an attorney.
Jenkins v. United States, 548 A.2d 102, 104 (D.C. 1988). Therefore, Defendant’s claims
of ineffective assistance of counsel must fail because Strickland v. Washington, which

3

-v

1
"1

applies to the constitutional right to counsel, has not been adopted as a standard when
evaluating effectiveness of counsel under a statutory right.2 See Untied States v. Hamid,

1

461 A.2d 1043, 1045-46 (D.C. 1983).
However, while the Court could deny Defendant’s motion because there is no
constitutional right to counsel, in fairness to Defendant, the Court will consider

1
1
1
]
]

Jl
J
1
il

Defendant’s claims under the Strickland standard. “In order to demonstrate ineffective
assistance of counsel, the appellant must show (I) that his trial counsel’s performance
was constitutionally deficient, and (2) ‘that there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would have been different.”’
Mozee v. United States, 963 A.2d 151, 165 (D.C. 2009) (quoting Strickland v.
Washington, 466 U.S. 668, 694 (1984)).

To find a counsel's performance

constitutionally deficient, there is “a strong presumption that counsel’s conduct falls
within the wide range of professional assistance.” Ready v. Untied States, 620 A.2d 233,
234 (D.C. 1993) (quoting Strickland v. Washington, 466 U.S. 668,687 (1984)). In order
to determine prejudice, “the court must find that appellant has shown there is reasonable
probability that but for counsel’s unprofessional enors, the result [at trial] would have
been different.” Ready v. Untied States* 620 A.2d 233, 234 (D.C. 1993) (quoting
Strickland. 466 U.S, 694). For efficacy reasons, courts focus on the second prong of the
Strickland test because, “without prejudice there can be no ineffective assistance.”
Griffin v. Untied States, 598 A.2d 1174,1176 (D.C. 1991).

]

Jl
il
I
1

*
The Court recognized a statutory right to counsel “from such person’s initial appearance before the
court through appeals, including ancillaiy matters appropriate to the proceedings’’ In re A.&&,
A-2d
at 190 (quoting D.C. Code § 11-2603 (2001)). This includes appellate counsel researching ineffective
assistance by the trial counsel during the pendency of an appeal, and filing an appropriate motion uniter
DC. Code 6 23-110. Hardy v. United States, 988 Aid 950, 960 <D,C. 2010). A counsel must be
appointed when a hearing is held to review a motion filed under D.C. Code § 23-110. Brown v. United
States, 656 A.2d 1133, 1135-36 (D.C. 1995), In this matter. Defendant had a statutory right to counsel
based on D.C. Code § 11-2603, and one was appointed ter him.
4

IIL

ANALYSIS

Defendant claims that Attorney Nichols, who represented Defendant during the §
1

23-110 Hearing, was ineffective,

The Court finds that Mr. Nichols was not

constitutionally deficient and, even if he were, Defendant has not been prejudiced.
1. Attorney Nichols and Potential Rule 11 Violations
Defendant believes that his guilty plea was coerced and, therefore, ineffective
because of a Rule 11 violation, and that Mr. Nichols failed to present evidence of this
coercion to the Court at his § 23-110 Hearing. This Court has found on multiple
occasions that Defendant may not revoke his guilty plea, and that there was no Rule 11
violation. (Order, July 31, 2008.) (Oral Order, Oct. 19, 2007.) The Court considered

J|
]

J
J
J
J
1
J!

evidence of coercion and believed it insufficient to find the plea ineffective. The Court of
Appeal* also found that Defendant waived his right to challenge his plea of guilty.
Robinson v. United States, No. 10-CO-277 (D.C. June 22, 2011). The Court found that
his chum was barred because he failed to raise them in die direct appeal of his sentence,
and that he failed to challenge the plea deal in his first § 23-110 proceeding. Id.
Therefore, it would have been improbable, and likely impossible, for Mr. Nichols to
succeed on this claim.
Further, the Court considered this argument, heard evidence and had findings
presented, and ultimately rejected this theory on prior occasions. Defendant fails to
present any new evidence which Mr. Nichols could have presented at the § 23-110
Hearing that would have affected the outcome. To claim that Mr. Nichols failed in some
way to bring this to the attention of the Court is simply wrong. The Court finds that Mr.
Nichols was not deficient because he presented evidence of the plea agreement both at

5

I

]•

the hearing and in findings of feet Even if Mr. Nichols were deficient in some way,
there has been no demonstrated prejudice because the evidence supporting Defendant’s
contention was heard and rejected on multiple occasions. Defendant’s argument has been

1
1
1|
1|
J
]

Jl
Jl

rejected twice before, and Defendant has offered no new evidence which would now
impact the Court’s decision. Any assertion otherwise, without new evidence, is palpably
incredible. Therefore, because there is no allegation that would warrant a hearing
pursuant to § 23-110, the motion is denied.
2. Attorney Nichols and Evidence ofAttorney Signet’s Ineffectiveness
Second, Defendant believes that Mr. Nichols failed to present evidence showing
Attorney Signet was ineffective. In particular, Defendant argues that this evidence would
show that Mr. Signet improperly encouraged Defendant to plead guilty by telling him (a)
his wife would be prosecuted for obstruction of justice; and (b) Kelsey would testify
against him as part of Kelsey’s plea agreement However, these are conclusoiy claims
that were already considered and rejected by the Court. Defendant fails to present any
additional evidence which the Court could consider that was not already before the Court.
Mr. Nichols presented to the Court allegations that Mr. Signet was ineffective during the
plea negotiations, and the Court rejected Mr. Nichols’s argument. (Order, Dec.. 30,

]

2009.) The Court found that Mr. Signet had been thorough and effective, and that the
plea was not coerced. (Id.) Defendant offered no new evidence to support his theory.^Mr. Nichols could not be ineffective in presenting evidence when Defendant himself

j

J
IJ

II
I!

cannot present any new evidence which would show Mr. Signet’s ineffectiveness. The
Court finds that Mr. Nichols was not deficient because he presented evidence of Mr.
Signet’s ineffectiveness at the § 23-110 Hearing. Even if Mr. Nichols were deficient in

6

>

1
1
1
1

some way, there has been no demonstrated prejudice because the evidence supporting
Defendant’s contention was received and rejected.

Therefore, because there is no

allegation that would warrant a hearing pursuant to § 23-110, the motion is denied.
3. Attorney Nichols and Kelsey's Potential Testimony
Defendant claims that Mr. Nichols was ineffective because he failed to call
Kelsey as a witness. Defendant presents extensive evidence, including an affidavit from
Kelsey, that he believes supports his contention that Kelsey would be a favorable witness.
The Court has already rejected Defendant's proffer. (Order, Jan. 8, 2010.) Neither Mr.

1|
J

Nichols nor Mr. Signet was deficient because the Court found that Kelsey raised his Fifth
Amendment privilege against self incrimination. (Id.) Kelsey was at the § 23-110
Hearing, and the Court found that Kelsey again asserted his privilege. (Id.) Messrs.
Signet and Nichols attempted to question him in the past, but failed. (Id.) The Court

]

J|
J
j

J
J
j

II
I
1

already found that the defense counsel’s efforts were complete and thorough with regards
to questioning Kelsey. (Id.) Kelsey now coming forward and saying he would testify is
irrelevant: Defendant claims his attorneys were ineffective, but Messrs. Signet and
Nichols were not deficient for failing to call Kelsey as a witness because Kelsey refused
to be interviewed until long after trial. Kelsey’s failure to come forward sooner should
not be imputed as ineffectiveness by Messrs. Signet and Nichols. The Court also notes
that, when Mr. Nichols heard that Kelsey might be willing to testify, he notified the
Court. (Notice, Nov. 4, 2009.) Hie Court’s Order took this notice into consideration.
The Court finds that Mr. Nichols was not deficient because his failure to call Kelsey as a
witness was sound strategy considering Kelsey made it impossible for Mr. Nichols to
prepare for him as a witness.

7

1-

1

Even if Mr. Nichols were deficient in some way, there has been no demonstrated
prejudice because Defendant failed to show Kelsey’s testimony would have affected die

1
1
1
1
J

outcome of the § 23-110 Hearing. In order to determine prejudice, “the court must find
that appellant has shown there is reasonable probability that, but for counsel’s
\

M
]

Ji
Ji
Ji
Ji
Ji
J
ji
I

unprofessional errors, the result [at trial] would have been different.” Ready v. United
States, 620 A.2d 233,234 (D.C. 1993) (quoting Strickland v. Washington, 466 U.S. 668,
694 (1984)). In Ready, the Court held that a defense counsel’s failure to call a witness
that the defendant requested was too speculative to warrant a hearing. 620 A.2d at 234.
The defendant did not show how the failure to call the witness led to prejudice, instead
relying on mere belief that the witness would be of help to his case. Id. at 234-35. In this
case, just as in Ready, Defendant believes that Kelsey would have testified in a way that
would have affected the outcome of the § 23-110 Hearing. Mr. Nichols could not
reasonably call Kelsey as a witness because Kelsey had invoked his Fifth Amendment
privilege. Further, even if Kelsey chose to waive his privilege on the day of the hearing,
Mr. Nichols could not reasonably be expected to call Kelsey to fee stand. Kelsey was a
conflicted witness involved in murder, and his testimony may have done more to harm
Defendant’s case then help.

Kelsey's refusal to testify at trial, and refusal to be

investigated by Messrs. Signet and Nichols, indicated that, if Mr. Nichols had put Kelsey
on the stand, Mr. Nichols would have been unprepared for what may happen. This could
have been disastrous: fee government could have impeached Kelsey and rendered his
testimony worthless, and possibly even implicated Defendant further. Just as in Ready,
the Court finds that Kelsey’s theoretical testimony is too speculative to find prejudice.

8

J

)

]

1
1
]

Therefore, because there is no allegation that would warrant a hearing pursuant to § 23110, the motion is denied.
IV.

CONCLUSION

Defendant has foiled to show any constitutional infirmaries which must be
addressed at a § 23-110 hearing. Many of the grievances are vague and conclusory,
while others are palpably incredible or, even if true, would merit no relief. See Lopez,
801 A.2d at 42.

]

It is THEREFORE by this Court this

1

ORDERED, that Defendant Steven T. Robinson’s Motion to Vacate Conviction

i

i

J
J|
J
1
J
II
J
II
I

1

1$

day of August, 2012,

and Sentence Pursuant to § 23 D.C. Code Section 110 is DENIED.
SO ORDERED.

ERIK P. CHRISTIAN
JUDGE
(Signed-in-Cbambers)
Copies to:
Steven T. Robinson a.k.a.
Michael Moore
Fed. Reg, 08088-007
U.S.P. Hazelton
P.O. Box 2000
Bruceton Mills. WV 26525
Office of the AUSA
555 4th Street, NW
Washington, DC 20530

9

I*

X

a

■i
■ >

DISTRICT OF COLUMBIA COURT OF APPEALS
No.lO-CO-277

ro
II ~

JUN 2 2 2011

No. CF1-2942-06

v.
United States,
Appellee.
Appeal from the Superior Court of the
District of Columbia,
Criminal Division
(Hon. Erik P. Christian, Trial Judge)

Decided June 22, 2011)

Before Ruiz, Glickman, and Thompson, Associate Judges.
MEMORANDUM OPINION AND JIJDCMF.NT
. . fER C™AM: This is an appeal from the denial of a § 23-110 motion to set aside appellant’s
cmruna! convictions for murder and obstruction ofjustice. Appellant’s sole claim is that the trial
court should have permitted him to withdraw his guilty plea to those offenses because he tendered
5.
m;st^en:beiietthanjregoveniment would prosecute his wife on obstruction of justice
charges, during his murder trial as opposed to in ^separate proceedingTHTKe rejected the'
government s plea offer. We conclude that appellant has waived this claim.
I.

;r«32E“S£K£==£3-

relating to appell^t s case. After conducting a thorough Rule 11 inquiry, the trial court found that
appellant tendered his plea knowingly, intelligently, and voluntarily.

Brief for Appellant at 5.

Itilv

DlS’Jfiia O' GOI.! JMBiA
COUiU o: APPEALS

Steven T. Robinson,
a/k/a Michael Moore,
Appellant,

(Submitted March 9,2011

©

\
J

-2-

Five days later, however, on August 21,2007, appellant moved to withdraw his guilty plea,
claiming that it was coerced by the government’s threat to prosecute his wife. The trial court denied
the motion and sentenced appellant on October 19,2007. (The court set forth its reasons in a written
order issued on July 31,2008.) Appellant filed an untimely notice of appeal in March 2008, together
with a motion for leave to file out of time.2 This court dismissed the appeal as untimely but
permitted appellant to move to reinstate it in the event the Superior Court granted him leave to file
out of time. Appellant did not pursue that avenue of relief. Instead, in October 2008, he filed the
instant § 23-110 motion, and thereafter sent a letter to the Clerk of the Superior Court asking that
his motion for leave to file his appeal out of time be dismissed due to the fact that the "matter was
never ruled upon.”
Appellant raised several new grounds for reliefin his § 23-110 motion, including ineffective
assistance ofcounsel, and he reasserted his claim that the prosecutor coerced him into pleading guilty
by threatening to prosecute his wife for obstruction of justice. The latter claim was omitted,
however, from the statement of issues to be addressed at the hearing on the §23-110 motion, which
the government had prepared after discussions with appellant’s attorney handling the motion. The
only issues identified in that statement related to whether appellant’s trial counsel had rendered
ineffective assistance - specifically, in failing to investigate and discover exculpatory evidence, and
in failing to perfect a timely appeal from the denial of appellant’s plea withdrawal motion. At the
outset of the September 10,2009, hearing on the § 23-110 motion, the trial court asked appellant’s
counsel whether the government’s statement of issues was “consistent” with his “understanding of
the outline and the boundaries of th[e] hearing.” Appellant’s counsel responded in the affirmative,
explaining that appellant “understands that the Court has previously ruled on whether [his] plea can
be withdrawn.” Thus, the focus ofthe ensuing evidentiary hearing, at which appellant testified, was
on the alleged deficiencies in the performance of appellant’s trial counsel and their prejudicial
impact- not on whether the trial court should have granted appellant’s motion to withdraw his plea
because it was involuntary.
~
in the course of his testimony at thrheaxiug; appefiam-professed-famnaoceRce-and-blamed
his decision to plead guilty on his defense counsel’s deficient investigation and inadequate advice.
With respect to the threatened prosecution of his wife for obstruction ofjustice, appellant testified
that on the morning trial was set to start, he did not see his wife and asked his attorney where she
was, His attorney allegedly told him, erroneously, that she “may” have been arrested already because
appellant had rejected the government’s plea offer. Appellant claimed he then agreed to plead guilty,
despite his innocence, in order to protect his wife from prosecution, and that he “never” would have
pleaded guilty “[h]ad my lawyer not informed me that the Government arrested my wife because 1
denied the Government plea offer." Appellant further asserted he would not have taken the plea had
he been informed that the obstruction charges against his wife (and himself) would have been
brought in a proceeding separate from - i.e., subsequent to — his prosecution for murder.
2 Appellant claimed that he had deposited a timely notice of appeal in the mail depository
at the D.C. Jail (which was either mis-addressed or somehow went awry), and further that he had
asked his attorney to note a timely appeal.

t

JJ

-3-

At the conclusion of the § 23-110 hearing, appellant’s-counsel argued trial counsel’s
ineffectiveness. Among other things, he blamed trial counsel for misleading appellant into thinking
his wife had been arrested; contended that counsel “improperly represented” appellant “because he
was not given an explanation as to the probable outcomes with his wife threatening to be charged
with an obstruction ofjustice"; and argued that “entering a plea to prevent her from being prosecuted
was not a plum for [appellant],” in essence because the government would have been unlikely to
pursue the obstruction charges if it succeeded at trial In convicting appellant of murder. Counsel
reiterated these and other claims of ineffective assistance in proposed findings of fact and
conclusions of law.
'
The trial court denied the § 23-110 motion in a written order on December 30,2009. The
court found “no support for [appellant’s] claims alleging ineffective assistance of counsel." To the
contrary, the court found that trial counsel’s efforts “were complete and thorough,”
II.
Appellant does not argue that the trial court erred in rejecting his ineffective assistance of
counsel claims. Indeed, appellant’s brief barely mentions those claims. Instead, the sole claim
appellant raises on appeal is that the trial court erred in denying his motion to withdraw his guilty
plea prior to sentencing.3 In support of that contention, appellant argues that the government coerced
his guilty plea by threatening to prosecute his wife and failing to apprise him of the timing of the
charges against her, and that the trial court did not adequately probe and discover why he decided
to plead guilty in its Rule 11 inquiry.
Appellant waived these arguments by declining to pursue them in a direct appeal following
his sentencing and then expressly abandoning them in the § 23-110 proceedings below.” And by
failing to argue his ineffective assistance claim in his brief on appeal, appellant has abandoned that
claim as well.5 Appellant therefore is not entitled to relief in this court.
3 Brief for Appellant at 5-6.
4 See United States v. Zubia-Torres, 550 F.3d 1202, 1205 (10th Cir. 2008) (“We typically
find waiver in cases where a party has invited the error that it now seeks to challenge, or where a
party attempts to reassert an argument that it previously raised and abandoned below.”). We also
could find a forfeiture of the claim in this case. See D.D. v. M.T., 550 A,2d 37,48 (D.C. 1988)
(“Questions not properly raised and preserved during the proceedings under examination, and points
not asserted with sufficient precision to indicate distinctly the party’s thesis, will normally be
spumed on appeal.” (quoting Miller v. Avirom, 127 U.S. App. D.C. 367,369-70,384 F.2d 319,32122(1967))).
5 Appellant’s mere allusion to his counsel’s ineffectiveness, devoid of any supporting
argumentation, does not preserve the issue for our consideration. See Bardoffv. United States, 628
(continued...)

\
jt

-4For the foregoing reasons, the judgment of the Superior Court denying appellant’s motion
to set aside his conviction is hereby affirmed.
ENTERED BY DIRECTION OF THE COURT:

JtfflJO A. CASTILLO
Cletjc of the Court

Copies to:

Jt true Copy
list;

Honorable Erik P. Christian
Kevin McCants, Esquire
1100 New York Avenue, NW
Suite 325E
Washington, DC 20056
Roy W. McLeese, III, Esquire
Assistant United States Attorney

5(... continued)
A.2d 86, 90 n.8 (D,C. 1993) (citing D.C. App. R. 28(a)(5)).

Jutlc CastlGo
Ckr^jtftfie'District o/Cobmiia Cam
o/Uppms -\
f -v.
BY,

'

ti/X(2

DEPUTY CLERK

Julio Castillo
Cleric of the District of Columbia
Court of Appeals

o
r

V

►f-W -

{

SUPERIOR COURT OF THE DISTRICT
CRIMINAL DIVISION - FELONY gR^NGH

"tAM™

Case %(?<$& 0^*94* W

UNITED STATES OF AMERICA

JUDGE ERIl^ ?*. &BUSTIAN

v.
STEVEN ROBINSON A.K.A.
MICHAEL MOORE

Closed
ORDER

This matter comes before the Court upon defendant’s November 17, 2009 letter
and treated as a pjfi se Motion to Vacate, Set Aside, or Correct Sentence Pursuant to D.C.
Code § 23-110. Upon consideration of the defendant’s Motion, the Motion is denied for
die reasons set forth herein.
On October 9,2008, the defendant filed a pro se “Motion to Vacate, Set Aside, or
Correct Sentence” pursuant D.C. Code § 23-110 alleging ineffective assistance of
counsel. An evidentiary hearing was held on September 10, 2009 in which defense
witnesses provided testimony. One defense witness, Mr. Robert Kelsey, was present for
the hearing but asserted his Fifth Amendment privilege against self-incrimination.
Moreover, defense counsel testified that his predecessor attempted to interview co­
defendant Robert Kelsey. Those efforts were thwarted by Mr. Kelsey’s counsel however.
A defendant’s motion claiming' ineffective assistance of counsel, must meet the
test established in Strickland v. Washington. 466 U.S. 668 (1984).

The standard

governing claims of ineffective assistance of counsel requires tire defendant to show that
counsel’s performance -was deficient and that fee deficient performance prejudiced fee
defense. This requires a showing that counsel’s errors were so serious as to deprive the
defendant of a faiFtrial, a tna)~whose result is .reliable. Strickland v. Washington. 466

HUNTERBL 01/12/201011:17:18 />

'f• r-\

Jr

\

;
v

US. 668, 687 (1984). “The proper measure of attorney performance remains simply
reasonableness-tender prevailing professional norms.” |d., at 688. The defendant must
show that counsel’s representation fell below an objective standard of reasonableness in
light of all the circumstances. Jd.
This Court finds no support for defendant’s claims alleging ineffective assistance
of counsel. Robert Kelsey was present for the September 10, 2009 hearing but asserted
his Fifth Amendment privilege against self-incrimination. Defense counsel testified that '
his predecessor attempted to interview Mr. Kelsey however those efforts were thwarted
-

by Mr. Kelsey’s counsel.

Based upon this testimony, this Court finds that defense

counsel’s efforts were complete arid thorough.
Accordingly, defendant’s claim of ineffective assistance of counsel is denied as
unsupported.
THEREFORE, it is this

3D

day of December, 2009,

ORDERED, that the defendant's prg se Motion to Vacate, Set Aside, or Correct
Sentence pursuant to D.C. Code § 23-110 is DENIED.
SO ORDERED.

ERIK P, CHRISTIAN
Judge .
(Signed in Chambers)

2
HUNTERBL 01/12/2010 11:17:1P

/

